No:

IN THE
SUPREME COURT OF THE UNITED STATES

GERTI MUHO,
Petitioner,
v.
UNITED STATES OF AMERICA,

Respondent.
DECLARATION VERIFYING TIMELY FILING

Petitioner, GERTI MUHO, through undersigned counsel and pursuant to Sup. CT. R. 29.2
and 28 U.S.C. ยง 1746, declares that the Petition for Writ of Certiorari filed in the above-styled
matter was placed in the U.S. mail in a prepaid first class envelope, addressed to the Clerk of the
Supreme Court of the United States, on the 22nd day of March, 2021, which is the date that the

petition for writ of certiorari is due.

Decgucls 2& Sh a
Jacqueline E. Shapiro

40 N.W. 3rd Street,

Penthouse One

Miami, FL 33128

Tel. 305-403-8207

Miami, Florida
March 2021
